                                                   NATIONAL SCIENCE FOUNDATION                        I
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                      I,




    Case Number: I03120073
                                                                                  11          Page 1 of 1


                  We reviewed 7 1 grants selected by a random sampling procedure from NSF Fiscal Year
          200 1 awards for conferences, workshops and symposia. As part of the review, we requested
          grant records from each grantee. Where the records indicated possible mischarging or other
          issues we opened inquiries to resolve them.

          This case was opened to examine more carefully the charges to an NSF award.' The entire knded
          amount of the award was designated as participant support. However, when asked the grant7e2was
          unable to provide specifics on how the NSF h d s were spent because the grantee pooled the funds
          from all sponsors into one account. All the expenses for the conference were then charged to that
          account. This practice is in violation of OMB Circular A1 10 section 21.

          We asked the grantee to attempt to identify expenses that would have been charged to the NSF
          award, and the materials that were supplied raised more questions about the specifics of these
          charges. Because the assignment of charges was after the fact, we determined that seeking further
          clarification would not resolve the matter. We determined that this matter was a specific example of
          a systemic practice at a grantee that indicated an audit was the appropriate mechanism for review.
          Therefore this matter has been referred to the Office of Audit and the investigative file closed.
                                                                                                           Il




          1
              redacted
               redacted.                                                                                        I




                                                                                                                I

I
NSF OIG Form 2 ( I 1/02)
